—ZRTIFICATE OF WORD COUNT No. TBD
Anne Richards Et al.,
Petitioners,
v.
Sam Olens Et al.,
Respondents.

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
That, as required by Supreme Court Rule 33.1(h), I certify that the ANNE RICHARDS ET AL.
PETITION FOR WRIT OF CERTIORARI contains
words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas eDeus
December 14, 2020

SCP Tracking: Humphreys-P.O. Box 192-Cover White

